U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

September 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Assassination Archives and Research Center v. Central Intelligence Agency,
No. 19-1273
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 28, 2020,
and placed on the Court’s docket on May 8, 2020. The government’s response is currently due,
on one extension, on September 16, 2020.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including October 16, 2020, within which to file the government’s response. This extension
is necessary because the attorneys with principal responsibility for final preparation of the
government’s response have been heavily engaged with the press of other matters before the Court.
Although petitioner objected to a prior extension, see 7/22/20 Response (noting desire to
consolidate this case with United States Fish & Wildlife Serv. v. Sierra Club, No. 19-547), counsel
for petitioner does not object to this further extension of time.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General

cc:

See Attached Service List

19-1273
ASSASSINATION ARCHIVES & RESEARCH
CENTER
CIA

DANIEL S. ALCORN
ATTORNEY AT LAW
1335 BALLANTRAE LANE
MCLEAN, VA 22101
703-442-0704
DALCORN@RCN.COM

